No. 19-431

In the Supreme Court of the United States
__________________
LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
Petitioner,
v.
PENNSYLVANIA, ET AL.,
Respondents.
__________________
On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

__________________
Brief of Christian Business Owners
Supporting Religious Freedom as
Amicus Curiae in Support of Petitioner
__________________
ERIN ELIZABETH MERSINO
Counsel of Record
WILLIAM WAGNER
JOHN S. KANE
KATHERINE HENRY
GREAT LAKES JUSTICE CENTER
5600 W. Mount Hope Highway
Lansing, MI 48917
(517) 322-3207
erin@greatlakesjc.org
Counsel for Amicus Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Amicus curiae Christian Business Owners
Supporting Religious Freedom address the following
question:
Whether the federal government lawfully exempted
religious objectors from the regulatory requirement to
provide health plans that include contraceptive
coverage.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
STATEMENT OF IDENTITY AND INTERESTS
OF AMICUS CURIAE . . . . . . . . . . . . . . . . . . . . . 1
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 7
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I. THE HHS MANDATE SUBSTANTIALLY
BURDENS PETITIONERS’ RELIGIOUS
EXERCISE BY REQUIRING THEM TO
PARTICIPATE IN, FACILITATE, AND
TRIGGER THE DISTRIBUTION OF
CONTRACEPTIVES AND ABORTIFACIENTS
IN VIOLATION OF PETITIONERS’
SINCERELY HELD RELIGIOUS BELIEFS . . 10
II. THE ACCOMMODATION FAILS TO USE THE
L E A S T R E S T R I C T I VE MEAN S O F
FURTHERING A COMPELLING INTEREST
AS T HE HHS MANDATE I T SEL F
CONTEMPLATES LESS RESTRICTIVE
ALTERNATIVES AND EXEMPTS MILLIONS
OF HEALTH PLANS FROM ITS PURPORTED
COMPELLING INTEREST . . . . . . . . . . . . . . . . 16
A. The Accommodation is Not the Least
Restrictive Means of Providing Free
Contraceptives and Abortion Causing Drugs
and Devices . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iii
B. Providing Free Contraceptives and
Abortifacients is Not a Compelling
Government Interest . . . . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

iv
TABLE OF AUTHORITIES
CASES
Anderson v. Celebrezze,
460 U.S. 780 (1983). . . . . . . . . . . . . . . . . . . . . . . 20
Beckwith Electric Co., Inc. v. Sebelius,
960 F. Supp. 2d 1328
(M.D. Fla. June 25, 2013) . . . . . . . . . . . . . . . . . . . 2
Bowen v. Roy,
476 U.S. 693 (1986). . . . . . . . . . . . . . . . . . . . 11, 12
Burwell v. Hobby Lobby Stores, Inc.,
134 S. Ct. 2751 (2014). . . . . . . . . . . . . . . . . passim
Church of Lukumi Babalu Aye v. City of Hialeah,
508 U.S. 520 (1993). . . . . . . . . . . . . . . . . . . . . . . 24
City of Boerne v. Flores,
521 U.S. 507 (1997). . . . . . . . . . . . . . . . . . . . . . . 16
E. Tex. Baptist Univ. v. Burwell,
793 F.3d 449 (5th Cir. 2015). . . . . . . . . . . . . . . . 13
Geneva Coll. v. Sec’y United States HHS,
778 F.3d 422 (3d Cir. 2015) . . . . . . . . . . . . . . . . 13
Gonzales v. O Centro Espírita Beneficente União do
Vegetal,
546 U.S. 418 (2006). . . . . . . . . . . . . . . . . . . . . 9, 24
Griswold v. Connecticut,
381 U.S. 479 (1965). . . . . . . . . . . . . . . . . . . . . 9, 21
Harris v. McRae,
448 U.S. 297 (1980). . . . . . . . . . . . . . . . . . . . 21, 22

v
Little Sisters of the Poor Home for the Aged v.
Burwell,
794 F.3d 1151 (10th Cir. 2015). . . . . . . . . . . . 4, 13
Lyng v. Northwest Indian Cemetery Protective Ass’n,
485 U.S. 439 (1988). . . . . . . . . . . . . . . . . 11, 12, 23
National Federation of Independent Business v.
Sebelius,
567 U.S. 519 (2012). . . . . . . . . . . . . . . . . . . . . . . 19
National Institute of Family and Life Advocates v.
Becerra,
138 S. Ct. 2361 (2018). . . . . . . . . . . . . . . . . . . . . . 9
Priests for Life v. United States HHS,
772 F.3d 229 (D.C. Cir. 2014). . . . . . . . . . . . . . . 13
Riley v. Nat’l Fed’n of Blind,
487 U.S. 781 (1988). . . . . . . . . . . . . . . . . . . . . . . 16
Roe v. Wade,
410 U.S. 113 (1973). . . . . . . . . . . . . . . . . . . . . . . . 9
Thomas v. Review Bd. of Indian Employment
Security Div.,
450 U.S. 707 (1981). . . . . . . . . . . . . . . 7, 10, 11, 12
Zubik v. Burwell,
136 S. Ct. 1557 (2016). . . . . . . . . . . . . . . . . 5, 6, 13
STATUTES AND REGULATIONS
4 C.F.R. § 59.5 . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 17
26 U.S.C. § 4980D(a)-(b) . . . . . . . . . . . . . . . . . . . . . . 3
26 U.S.C. § 4980D(b) . . . . . . . . . . . . . . . . . . . . . . . . . 5

vi
26 U.S.C. § 4980H(a) . . . . . . . . . . . . . . . . . . . . . . . 3, 5
26 U.S.C. § 4980H(c)(1) . . . . . . . . . . . . . . . . . . . . . 3, 5
26 U.S.C. § 4980H(c)(2) . . . . . . . . . . . . . . . . . . . . . . . 8
26 U.S.C. § 4980H(c)(2)(A). . . . . . . . . . . . . . . . . . . . . 3
26 U.S.C. § 6033(a)(3)(A)(i) . . . . . . . . . . . 3, 18, 22, 23
26 U.S.C. § 6033(a)(3)(A)(iii) . . . . . . . . . . 3, 18, 22, 23
42 U.S.C. § 300gg-13(a) . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 300gg-13(a)(4) . . . . . . . . . . . . . . . . . . 2, 22
42 U.S.C. § 18011(a). . . . . . . . . . . . . . . . . . . . . . . . . . 8
42 U.S.C. § 18011(a)(2) . . . . . . . . . . . . . . . . . . . . 3, 22
42 U.S.C. § 18011(e) . . . . . . . . . . . . . . . . . . . . . . . . . . 8
42 U.S.C. § 2000bb-1 . . . . . . . . . . . . . . . . . . . . . . . . 10
42 U.S.C. § 2000bb-1(a) . . . . . . . . . . . . . . . . . . . . . . 12
42 U.S.C. § 2000bb-1(b) . . . . . . . . . . . . . . . . . . . . . . 16
42 U.S.C. § 2000cc-5(7)(A) . . . . . . . . . . . . . . . . . . . . 10
45 C.F.R. § 147.131(a) . . . . . . . . . . . . . . . . . . . . . . . . 8
45 C.F.R. § 147.131(b) . . . . . . . . . . . . . . . . . . . . . . . . 8
45 C.F.R. § 147.140 . . . . . . . . . . . . . . . . . . . . . . . 3, 22
75 Fed. Reg. 34540 . . . . . . . . . . . . . . . . . . . . . . . . 9, 23
77 Fed. Reg. 8725 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
78 Fed. Reg. 37874 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

vii
78 Fed. Reg. 39877 . . . . . . . . . . . . . . . . . . . . . . . . . . 15
79 Fed. Reg. 51092 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
82 Fed. Reg. 47792 (Oct. 13, 2017) . . . . . . . . . . . . . . 6
82 Fed. Reg. at 47,798-47,799, 47,814
(July 22, 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
83 Fed. Reg. at 57,551 . . . . . . . . . . . . . . . . . . . . . . . 17
OTHER AUTHORITIES
Family Planning Annual Report: 2011 National
S u m m a r y ,
a v a i l a b l e
a t
http://www.hhs.gov/opa/pdfs/fpar-2011-nationalsummary.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 17
F.D.A. Birth Control: Medicines to Help You,
available at http://www.fda.gov/ForConsumers/
ByAudience/ForWomen/FreePublications/ucm3
13215.htm#EC . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
STATEMENT OF IDENTITY
AND INTERESTS OF AMICUS CURIAE
Pursuant to Supreme Court Rule 37, Amicus curiae,
Christian Business Owners Supporting Religious
Freedom, respectfully submits this brief. Amicus
curiae urges this Court to protect the freedom of
religious exercise enshrined in the Religious Freedom
Restoration Act, and the First and Fourteenth
Amendments of the United States Constitution.1
Amicus curiae, Christian Business Owners
Supporting Religious Freedom, has a significant
interest in the protection of the constitutional rights
and religious freedom of business owners nationwide.
Amicus curiae are faithful Christians who strive to
conduct their business operations with integrity and in
compliance with the teachings, mission, and values of
the Holy Bible. Amicus curiae believe that business
owners have the freedom to conduct their business in
a manner that does not violate their sincerely held
religious beliefs and that follows the principles of their
religious faith.
Amicus curiae include business owners who have
been forced to file lawsuits to preserve the exercise of
their Christian beliefs free from crippling fines and
1

Petitioners and Respondents have granted blanket consent for
the filing of amicus curiae briefs in this matter. Amicus curiae
further states that no counsel for any party authored this brief in
whole or in part, and no counsel or party made a monetary
contribution intended to fund the preparation or submission of this
brief. No person other than Amicus curiae, its members, or its
counsel made a monetary contribution to the preparation or
submission of this brief.

2
penalties that would strip them of their companies and
livelihoods. See, e.g., Beckwith Electric Co., Inc. v.
Sebelius, 960 F.Supp.2d 1328 (M.D. Fla. June 25,
2013).
Amicus curiae, Christian Business Owners
Supporting Religious Freedom, oppose the opinion of
the Court of Appeals for the Third Circuit because it
unlawfully violates the constitutionally protected rights
of all business owners across the country to act, speak,
and live out their Christian faith as free Americans.
Amicus curiae refuse to kneel at the altar of the State
and oppose the unjust rulings of the lower courts that
quarantine religious liberty. Amicus curiae file this
brief to support the arguments of the Petitioners.
BACKGROUND
The Patient Protection and Affordable Care Act
(“ACA”) requires non-exempt companies, including
religious non-profit organizations, with over 50
employees to provide coverage for women’s
“preventative care and screenings” without cost
sharing. 42 U.S.C. § 300gg-13(a). While an employer
with fewer than 50 employees is not required to provide
insurance coverage, should one choose to do so, the
employer is required to include “preventative care.”
Congress itself did not define what was included in
“preventative care,” instead transferring the authority
to define “preventative care” to the Health Resources
and Services Administration (“HRSA”), a component of
the Health and Human Services Department (“HHS”).
See 42 U.S.C. § 300gg-13(a)(4). HRSA included all
Food and Drug Administration (“FDA”) approved
“contraceptive methods, sterilization procedures, and

3
patient education and counseling for all women with
reproductive capacity” in its definition of “preventative
care,” thereby mandating that employers provide these
services without cost sharing. 77 Fed. Reg. 8725 (“HHS
Mandate”).
These FDA approved contraceptives
include abortion causing drugs (“abortifacients”). See
F.D.A. Birth Control: Medicines to Help You, available
at http://www.fda.gov/ForConsumers/ByAudience/
ForWomen/FreePublications/ucm313215.htm#EC
(describing how IUDs and “emergency contraception”
stop a fertilized egg from implanting in the mother’s
uterus). Failure to comply with the HHS Mandate
exposes employers to fines of $100 a day per
beneficiary. See 26 U.S.C. § 4980H(a), (c)(2)A); 26
U.S.C. § 4980D(a)-(b). Removing all health coverage
subjects employers to substantial annual penalties of
$2,000 per employee. 26 U.S.C. § 4980H(a), (c)(1).
These monumental fines would necessitate closing the
doors of most, if not all, non-profit and for-profit
companies owned by individuals with religious
objections to the HHS Mandate.
Companies with “grandfathered plans”—plans with
at least one person continuously enrolled in the plan
since March 23, 2010 with no changes to the plan—are
exempt from the HHS Mandate.
42 U.S.C.
§ 18011(a)(2), 45 C.F.R. § 147.140. There is also an
extremely limited exemption for religious employers,
which includes only “churches, their integrated
auxiliaries, and conventions or associations of
churches,” as well as “the exclusively religious activity
of any order.” 26 U.S.C. § 6033(a)(3)(A)(i), (iii).

4
In a failed effort to avoid substantially burdening
the religious exercise of non-profits that fall outside the
narrow “religious employer” exemption, a non-profit
organization receives an “accommodation” from directly
providing contraceptives and abortifacients if it:
(1) Opposes providing coverage for some or all of
the contraceptive services required to be
covered . . . on account of religious objections;
(2) is organized and operates as a nonprofit
entity; (3) holds itself out as a religious
organization; and (4) self-certifies that it
satisfies the first three criteria.
78 Fed. Reg. 37874. The self-certification required the
employer to inform its third-party administrator
(“TPA”) of the TPA’s obligation to provide contraceptive
and abortifacient coverage. See Little Sisters of the
Poor Home for the Aged v. Burwell, 794 F.3d 1151, 1163
(10th Cir. 2015). Alternatively, the objecting non-profit
could submit a written notice to HHS that contains:
(1) the name of the eligible organization and the
basis on which it qualifies for an
accommodation; (2) its objection based on
sincerely held religious beliefs to coverage of
some or all contraceptive services . . . (3) the
plan name and type . . . and (4) the name and
contact information for any of the plan’s third
party administrators and health insurance
issuers.
79 Fed. Reg. 51092.
Respondents’ regulations required non-profit
organizations to notify either their insurer or TPA of

5
their belief on the immorality of contraceptives and
abortifacients. This thereby triggered the insurer or
TPA to send written notice to all employees that
contraceptives and abortifacients are available to them
without cost sharing and triggers the insurer or TPA’s
obligation to provide those services without cost
sharing. If the organization instead chose to notify
HHS, it must provide it with all of the required
information to notify the insurer or TPA of their
obligation now to provide services Petitioners believe
contraceptives and abortion causing drugs are morally
reprehensible.
These options are considered an
“accommodation” for non-profits’ religious beliefs.
Petitioners Little Sisters of the Poor and many
other organizations sincerely believe that
contraceptives and abortifacients are immoral. Despite
this sincere belief, “accommodation” regulation
compelled religious business owners and non-profits to
participate in the distribution of contraceptives and
abortifacients, face substantial fines, or cease providing
health coverage altogether, which, in addition to
violating sincere religious beliefs, also potentially
imposes substantial fines. See 26 U.S.C. §§ 4980D(b),
4980H(a), (c)(1). This Court has already determined
that the fines for noncompliance with the HHS
Mandate impose a substantial burden on employers.
Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751,
2776 (2014).
This Court examined the future of the
“accommodation” in Zubik v. Burwell, 136 S. Ct. 1557,
1560 (2016) (per curiam). Instead of rendering a
decision on the merits at that time, this Court

6
remanded the case so that the parties could be
“afforded an opportunity to arrive at an approach going
forward” that would satisfy their respective concerns
and instructed that “the Government may not impose
taxes or penalties on petitioners for failure to provide
the relevant notice” that initiates the accommodation
process. Id. at 1560-61.
In light of this direction, the federal Petitioners
accepted public comment on how to change the
accommodation to resolve the pending lawsuits. 82
Fed. Reg. at 47,798-47,799, 47,814 (July 22, 2016). On
October 6, 2017, the federal Petitioners issued Interim
Final Rules (IFRs) expanding protections for objecting
organizations. 82 Fed. Reg. 47792 (Oct. 13, 2017). The
federal Petitioners concluded that requiring objecting
religious organizations to comply with the mandate
through the accommodation’s alternate mechanism
“constituted a substantial burden on the religious
exercise of many” religious organizations. Id. at 47806.
The federal Petitioners determined that requiring
compliance—with or without the accommodation—“did
not serve a compelling interest and was not the least
restrictive means of serving a compelling interest.” Id.
They thus concluded that “requiring such compliance
led to the violation of RFRA in many instances.” Id. In
order to genuinely accommodate religious
organizations’ objections, the federal Petitioners
expanded the “religious employer” exemption from the
mandate to include “all bona fide religious objectors.”
Id.
Respondents filed suit against the federal
Petitioners arguing that expanding the religious
exemption failed to comply with the Administrative
Procedures Act (APA) and was not justified by the ACA

7
or RFRA. This brief focuses on the validity of the latest
exemption and why the accommodation violates RFRA.
SUMMARY OF THE ARGUMENT
Petitioners Little Sisters of the Poor sincerely
believe that contraceptives and abortifacients, i.e.,
abortion causing drugs and devices, are morally wrong.
Thus, Petitioners’ faith prohibits them from being
complicit in the distribution of these products because
it is a sin. Despite Petitioners’ sincerely held religious
beliefs, Respondents’ regulations require Petitioners to
either violate their sincere religious beliefs by
participating in the distribution of contraceptives and
abortifacients or pay crippling fines. The Court is not
the arbiter of sacred scripture and cannot determine
whether the notification form and letter is attenuated
enough from the provision of contraceptives that it does
not substantially burden Petitioners’ religion. Delving
into this inquiry requires the Court to interpret
Petitioners’ religious beliefs on the morality of the
different levels of complicity with sin. Thomas v.
Review Bd. of Indian Employment Security Div., 450
U.S. 707, 718 (1981). Therefore, the Court should only
determine whether the Petitioners are being compelled
to do something that violates their faith—here, to fill
out the notification form or write the notification letter
to HHS, both triggering that contraceptives and
abortifacients be disseminated to their employees in
connection with their employee health plans. This
Court has already determined that the fines Petitioners
will face if they do not violate their beliefs by filling out
the notifications constitute a substantial burden.
Hobby Lobby, 134 S. Ct. at 2776.

8
Since the HHS Mandate places a substantial
burden on the Petitioners’ religious exercise,
Respondents argue that the HHS Mandate uses the
least restrictive means of furthering a compelling
governmental interest. Respondents fail on both
accounts. First, the HHS Mandate does not use the
least restrictive means of providing free contraceptives
and abortifacients. As this Court already determined,
the government could easily just provide free
contraceptives and abortifacients without involving
Petitioners or their health plans at all. See Hobby
Lobby, 134 S. Ct. at 2780. Indeed, the government
already subsidizes contraceptives and abortifacients
through its programs and could find ways to expand or
increase the efficacy of those existing programs. See,
e.g., 4 C.F.R. § 59.5; Family Planning Annual Report:
2011 National Summary, available at
http://www.hhs.gov/opa/pdfs/fpar-2011-nationalsummary.pdf.
Second, Respondents cannot argue that providing
free contraceptives and abortifacients is a compelling
governmental interest when the ACA regulations leave
so many women without these services.
The
regulations already provide exemptions for narrowly
construed religious employers, employers of fewer than
fifty employees, and employers with grandfathered
plans. See 45 C.F.R. § 147.131(a), (b) (exempting some
religious employers but not others); 26 U.S.C.
§ 4980H(c)(2) (exempting employers with fewer than
fifty employees from providing health insurance
altogether); 42 U.S.C. § 18011(a), (e), (exempting
grandfathered plans).
Grandfathered plans are
required to comply with provisions of the ACA the

9
regulations describe as “particularly significant.” 75
Fed. Reg. 34540. Notably, Congress did not deem the
HHS Mandate one of the particularly significant
provisions of the ACA. Id.
ARGUMENT
Respondents urge this Court to strike down the
narrow exemption granted to religious non-profits and
business owners. Respondents’ argument is a far cry
from the position asserted in Roe v. Wade, 410 U.S. 113
(1973), and Griswold v. Connecticut, 381 U.S. 479
(1965), which, at least ostensibly, centered around
privacy and choice. But this case is about the absence
of choice. Respondents seek to subvert the purpose of
RFRA, to protect and secure religious freedom, by
using the statute to limit protections granted to
Petitioners Little Sisters of the Poor by the government
after nine years of litigation and careful review of the
problem. Respondents seek to conscript all religious
business owners and non-profits into their pro-abortion
dogmata. Respondents seek to eliminate the right to
faithfully practice one’s faith while operating a
corporation in the United States of America. This
Court has addressed Respondents’ extreme position
many times before and, in each turn, held that
religious freedom requires protection.2 The Court
should do so again.

2

See, e.g., Gonzales v. O Centro Espírita Beneficente União do
Vegetal, 546 U.S. 418 (2006); Burwell v. Hobby Lobby, 573 U.S. 682
(2014); National Institute of Family and Life Advocates v. Becerra,
138 S. Ct. 2361 (2018).

10
I. THE HHS MANDATE SUBSTANTIALLY
BURDENS PETITIONERS’ RELIGIOUS
EXERCISE BY REQUIRING THEM TO
PARTICIPATE IN, FACILITATE, AND
TRIGGER THE DISTRIBUTION OF
CONTRACEPTIVES AND ABORTIFACIENTS
IN V IOLA TION O F P E TITIONER S’
SINCERELY HELD RELIGIOUS BELIEFS
Under RFRA, the government cannot “substantially
burden a person’s exercise of religion even if the burden
results from a rule of general applicability” unless “it
demonstrates that application of the burden to the
person—(1) is in furtherance of a compelling
governmental interest; and (2) is the least restrictive
means of furthering that compelling governmental
interest.” 42 U.S.C. § 2000bb-1. RFRA protects “any
exercise of religion,” including providing health
coverage to employees, “whether compelled by, or
central to, a system of religious belief.” 42 U.S.C.
§ 2000cc-5(7)(A); see also Hobby Lobby, 134 S. Ct. at
2775.
When determining that a law burdens religion, that
determination cannot “turn upon judicial perception of
the particular belief” and the “religious beliefs need not
be acceptable, logical, consistent, or comprehensible to
others in order to merit [] protection.” Thomas, 450
U.S. at 714. The Court cannot delve into the complex
religious analysis of the morality of complicity with sin.
Id. at 716 (“Courts are not the arbiters of scriptural
interpretation.”). Instead, the Court must undertake
the narrow function to determine whether Petitioners
have an “honest conviction” that cooperation with the

11
HHS Mandate and the so-called accommodation is
sinful. See id.
In Thomas, this Court held that courts cannot make
determinations on the reasonableness of a person’s line
for moral complicity, where a Jehovah’s Witness quit
his job after being transferred to a position that
required him to produce weapons. Id. at 715. His
initial position was in the production of sheet steel,
some of which was used to make weapons. Id. at 713
n. 3. Thomas found this position “sufficiently insulated
from producing weapons of war . . . and it is not for [the
Court] to say that the line he drew was an
unreasonable one.” Id. at 715. The Court could not
determine whether an act by Thomas was sufficiently
removed from the act he found objectionable. Id.
Distinguishably, in Lyng v. Northwest Indian
Cemetery Protective Ass’n, 485 U.S. 439 (1988), Native
Americans claimed that a government road near sacred
places substantially burdened their exercise of religion.
Id. at 441-42. The Court held that this did not burden
religion because it involved only government conduct
on publically owned land. Id. at 448-49. Notably, the
Court stressed that the individuals were not “coerced
by the Government’s action into violating their
beliefs.” Id. at 449 (emphasis added).
Likewise, in Bowen v. Roy, 476 U.S. 693 (1986), a
person refused to include the social security number
(“SSN”) of his daughter on an application for
government benefits because of his religious beliefs.
Id. at 698. His religious objections were twofold: (1) he
objected to the government’s use of the SSN; and (2) he
objected to being required to put the SSN on the

12
application for benefits. Id. at 699. The Court held
that his first objection did not violate free exercise
because it objected to exclusively governmental conduct
and did not require him to do or prohibit him from
doing anything proscribed by his beliefs. Id. The
second objection, which required the man to place his
daughter’s SSN on the form, did not violate the free
exercise of religion under the First Amendment because
it was “wholly neutral in religious terms and uniformly
applicable.” Id. at 703. However, this reasoning was
prohibited by Congress seven years later when it
enacted RFRA. RFRA prohibits the government from
compelling a person to engage in conduct that his
religion prohibits “even if the burden results from a
rule of general applicability.” 42 U.S.C. § 2000bb1(a) (emphasis added).
This case is like Thomas because both Petitioners
and Thomas drew a line of demarcation as to what
conduct violates their religion. Thomas, 450 U.S. at
715. Like in Thomas, the Court cannot decide whether
the act the government is compelling Petitioners to
complete is attenuated enough from the conduct they
find sinful. Id. Petitioners Little Sisters of the Poor
believe that filling out the “accommodation” form or
notifying HHS of their objection violates their religion.
It is not for the Court to say otherwise.
This case is dissimilar to Lyng and Roy because
those cases involved only government conduct and the
plaintiffs were not compelled to any actions by the
government. See Lyng, 485 U.S. at 448-49; Roy, 476
U.S. at 699. Here, the government is compelling
Petitioners to fill out a form or provide a detailed

13
notification to HHS in direct contradiction to their
religious beliefs. This is not exclusively government
conduct. It is compulsion to actively violate their
religious beliefs.
Respondents’ argument to revert back to the
accommodation requires Petitioners Little Sisters of
the Poor to be complicit with the distribution of
contraceptives and abortifacients. This position results
in a clear violation of RFRA. Four years ago, when this
Court first examined the legality of the accommodation
under RFRA, this Court vacated lower court holdings
that found the insurers and TPAs were solely
responsible for the distribution of contraceptives and
abortifacients because of federal law, rather than any
act of Petitioners. Compare Zubik, 136 S. Ct. at 1560
to Geneva Coll. v. Sec’y United States HHS, 778 F.3d
422, 437 (3d Cir. 2015); E. Tex. Baptist Univ. v.
Burwell, 793 F.3d 449, 459 (5th Cir. 2015); Priests for
Life v. United States HHS, 772 F.3d 229, 252 (D.C. Cir.
2014); Little Sisters of the Poor, 794 F.3d at 1173.
First, it is only because of Petitioners’ health plans
that the insurers have the obligation to provide
contraceptives and abortifacients to the specific persons
on Petitioners’ health plan. Federal law does not
independently require that women receive free
contraceptives and abortifacients; it is only required
when those women are in a health plan. It is the
federal law in conjunction with Petitioners’ health plans
that requires the insurers to provide contraceptives
and abortifacients to women in Petitioners’ health
plans. If Petitioners’ actions were not triggering,
complicity with, facilitating, or contributing to

14
providing contraceptives and abortifacients, insurers
would have to provide free contraceptives and
abortifacients to all women, regardless of whether they
are in a health plan or not and regardless of whether
Petitioners fill out a form. Without Petitioners’ health
plan, these women would not have free contraceptives
and abortifacients. Without the notification to the
insurers or HHS, the women would not have free
contraceptives and abortifacients. Petitioners are a
vital link in the causal chain of providing free
contraceptives and abortifacients.
This act by
Petitioners is then undoubtedly complicity and
undoubtedly against Petitioners’ sincere religious
beliefs, leaving Petitioners with the choice to either
violate their beliefs or face fines this Court has already
determined are substantially burdensome. Hobby
Lobby, 134 S. Ct. at 2776.
Second, the justification for requiring insurers to
provide free contraceptives and abortifacients to
women clearly demonstrates the tight, dependent
relationship between Petitioners’ health plans and the
provision of contraceptives and abortifacients.
Respondents justify requiring insurers to pay for
contraceptives and abortion causing drugs and devices,
stating:
[insurers] would find that providing
contraceptive coverage is at least cost neutral
because they would be insuring the same set of
individuals under both the group health
insurance policies and the separate individual
contraceptive coverage policies and, as a result,
would experience lower costs from

15
improvements in women’s health, healthier
timing and spacing of pregnancies, and fewer
unplanned pregnancies.
78 Fed. Reg. 39877. All of the “savings” insurers
receive to justify requiring them to pay for
contraceptives and abortifacients are costs that
Petitioners are willing to pay for and do insure for in
their health plans. The regulations justify requiring
insurers to pay for abortifacients and contraceptives by
“saving” under Petitioners’ health plans.
The
contraceptive and abortifacient coverage and the
Petitioners’ health plans are inextricably intertwined.
The Petitioners’ health plans necessarily cause,
facilitate, and trigger contraceptive and abortifacient
coverage, even under the “accommodation.” Otherwise,
women would receive the contraceptive and
abortifacient coverage regardless of whether or not
they have a health plan with a specific insurer. The
relationship between the Petitioners’ health plans and
the contraceptive and abortifacient coverage requires
Petitioners to either violate their sincere, honest
religious beliefs or face substantial fines. This is
unquestionably a substantial burden on their religious
exercise. See Hobby Lobby, 134 S. Ct. at 2776.

16
II. THE ACCOMMODATION FAILS TO USE THE
LEAST RESTRICTIVE MEANS OF
FURTHERING A COMPELLING INTEREST
AS THE HHS MANDATE ITSELF
CONTEMPLATES LESS RESTRICTIVE
ALTERNATIVES AND EXEMPTS MILLIONS
OF HEALTH PLANS FROM ITS PURPORTED
COMPELLING INTEREST
Because the Petitioners have a sincere religious
belief that even the accommodation substantially
burdens, the Court must determine whether the
accommodation survives strict scrutiny, “the most
demanding test known to constitutional law.” City of
Boerne v. Flores, 521 U.S. 507, 534 (1997).
A. The Accommodation is Not the Least
Restrictive Means of Providing Free
Contraceptives and Abortion Causing
Drugs and Devices
Under RFRA, the government must show that the
accommodation “is the least restrictive means.” 42
U.S.C. § 2000bb-1(b). The government must use
alternatives to achieve its desired end even when those
alternatives are more costly or less effective. See Riley
v. Nat’l Fed’n of Blind, 487 U.S. 781, 799-800 (1988).
The requirement for Respondents to use the least
restrictive means is “exceptionally demanding.” Hobby
Lobby, 134 S. Ct. at 2780.
In Hobby Lobby, the Supreme Court listed a number
of means far less restrictive than the so-called
accommodation. The Court stated that the most
straightforward way of providing contraceptives and

17
abortifacients is for the government to assume the cost
of providing them to any woman whose health plan
does not provide them. Id. This cost “would be minor
when compared with the overall cost of ACA.” Id. at
2781. In fact, the government already subsidizes
contraceptives and abortifacients on a large scale.
Since 1970, Title X of the Public Health Service Act has
provided funding for contraception and “preventive”
health services that involve family planning. See 4
C.F.R. § 59.5. In 2011, $276 million of the $1.3 billion
spent on delivering Title X-funded family planning
services came directly from Title X revenue sources.
Certainly, forcing religious employers, like the Little
Sisters of the Poor, to facilitate and trigger the supply
of abortion causing drugs is more restrictive than
finding a way to increase the efficacy of an already
established program that has a reported revenue
stream of $1.3 billion. See Family Planning Annual
Report: 2011 National Summary, available at
http://www.hhs.gov/opa/pdfs/fpar-2011-nationalsummary.pdf; see also 83 Fed. Reg. at 57,551; Hobby
Lobby, 573 U.S. at 728-730.
Additionally, this Court ultimately determined that
the requirement at issue in Hobby Lobby—for-profit
corporations being required to provide contraceptives
and abortifacients without an “accommodation” or
exemption—was not the least restrictive means
because HHS itself provided another way through the
non-profit “accommodation” at issue here. Id. at 2782.

18
Likewise, HHS itself provides another less
restrictive means to the accommodation—the religious
employer exemption. See Hobby Lobby, 134 S. Ct. at
2786 (“[T]he record in these cases shows that there is
an existing, recognized, workable, and alreadyimplemented framework to provide coverage. That
framework is one that HHS has itself devised . . . that
is less restrictive than the means challenged by the
plaintiffs in these cases.”) (Kennedy, J. concurring).
Under the regulations, religious employers are
completely exempt from the HHS Mandate without
filling out a form or providing a detailed notification to
HHS. See 26 U.S.C. § 6033(a)(3)(A)(i), (iii) (providing
an exemption for “churches, their integrated
auxiliaries, and conventions or associations of
churches” and “the exclusively religious activities of
any religious order.”). “RFRA is inconsistent with the
insistence of an agency such as HHS on distinguishing
between different religious believers—burdening one
while accommodating the other—when it may treat
both equally by offering both of them the same
[exemption].” Id. at 2786 (Kennedy, J. concurring).
The government could offer grants, go directly to
insurers themselves, or engage in countless other
options that do not involve the cooperation of the Little
Sisters of the Poor. Respondents claim that exempting
additional religious adherents from the HHS Mandate
would create a barrier to access of contraceptives and
abortifacients. Respondents claim that obtaining
access to free contraceptives through a secondary sign
up or other means would be an unworkable less
restrictive alternative. In many ways, this argument
is overblown and unpersuasive.

19
In National Federation of Independent Business v.
Sebelius, 567 U.S. 519 (2012), this Court required all
people who do not receive healthcare through an
employer to “opt in” or purchase healthcare. This
process of obtaining insurance is required under the
Affordable Care Act. Claiming the “opt in” process
itself poses a barrier is similar to asserting that the act
of obtaining insurance pursuant to the Affordable Care
Act amounts to a barrier. Afterall, it is the same “opt
in” process that in 2010 Congress determined was
necessary to extend the breadth and affordability of
healthcare coverage that now Respondents argue poses
a barrier. If we are honestly discussing barriers—isn’t
it more of a barrier for a woman seeking contraceptive
coverage from her employer to apply and obtain a
fulltime job that carries the benefit of healthcare?
Then, once she is hired, she has to properly enroll in
the employer’s healthcare coverage, and suffer through
the “barrier” of having to fill out the necessary new
employment forms, follow the employer’s insurance
company’s process to obtain employer sponsored
healthcare, and obtain an insurance card or other proof
of her insurance. Then, she still has to go through the
“barriers” of finding a doctor, going to the doctor or
participating in a telemedicine appointment, obtaining
a prescription, going to the pharmacist, waiting in line
at the pharmacist, giving the pharmacist her
prescription and insurance information, waiting for the
pharmacist to confirm her insurance, waiting for the
pharmacist to fill the prescription, and then picking up
the prescription or otherwise arranging for its delivery.
All these steps, that the Respondents accept without
complaint, pose much larger “barriers” than opting into
secondary coverage via a few clicks on a website.

20
Furthermore, employees who specifically desire
contraceptives and abortifacients to be included in
their employer health plan are not forced to obtain jobs
from the small minority of companies and non-profits
run by individuals who seek refuge from the HHS
Mandate under religious grounds. For example,
amicus curiae communicate to potential employees how
their religious beliefs effect their ability to offer certain
abortifacient drugs and devices in their health
insurance plan.
Amicus curiae honestly and
straightforwardly explain these parameters in their
healthcare coverage to job applicants, providing the
applicant with the option of looking elsewhere for
employment if the applicant desires different health
insurance benefits. Amicus curiae have excellent track
records for providing generous salaries to their
employees with benefits far better than the
marketplace standard, and strive to treat women, not
just equally, but in the model that Jesus Christ
provided—that women should be valued, cherished,
and deserve a heightened stature in society. Amicus
curiae simply cannot violate their own sincerely held
religious beliefs in order to forward the HHS Mandate’s
objective. And RFRA does not require that they do.
The accommodation is not the least restrictive
means of providing free contraceptives and
abortifacients. When the government “has open to it a
less drastic way of satisfying its legitimate interests, it
may not choose a [regulatory] scheme that broadly
stifles the exercise of fundamental personal liberties.”
Anderson v. Celebrezze, 460 U.S. 780, 806 (1983). The
narrow exemption allowed by the federal Petitioners’
falls squarely under RFRA by exempting religious

21
employers from the substantial burden of directly
violating their faith or paying devastating fines to the
Internal Revenue Service.
B. Providing Free Contraceptives and
Abortifacients is Not a Compelling
Government Interest
This Court already questioned HHS’s faulty
assertion that providing free contraceptives and
abortifacients is a compelling governmental interest.
RFRA “requires the Government to demonstrate that
the compelling interest test is satisfied through
application of the challenged law to the person—the
particular claimant whose sincere exercise of religion
is being substantially burdened.” Hobby Lobby, 134
S. Ct. at 2779 (internal quotation marks omitted). To
do this, the government cannot just assert “broadly
formulated interests.” Id. The Court must “scrutinize
the asserted harm of granting specific exemptions to
particular religious claimants . . . [and] look to the
marginal interest in enforcing the HHS Mandate in
these cases.” Id. (internal quotation marks and
brackets omitted).
While women have a right to obtain contraceptives,
see Griswold v. Connecticut, 381 U.S. 479, 485-486
(1965), this does not mean they have a right to free
contraceptives and abortifacients.3 Moreover, this right

3

In Harris v. McRae, 448 U.S. 297 (1980), this Court held that
while the Supreme Court has recognized the constitutional right
to abortion, there is no constitutional right that a private party or
a governmental entity subsidize that abortion. The Court
reasoned in Harris that while the “government may not prohibit

22
certainly does not mean that a person has the right to
obtain contraceptives and abortifacients—either
directly or indirectly—from their employer at the
expense of pillaging the employer’s religious liberty. As
this Court noted, aspects of the HHS Mandate support
the view that free contraceptives and abortifacients via
employers are not compelling governmental interests.
Hobby Lobby, 134 S. Ct. at 2780. For example, many
employees, such as those in grandfathered plans, those
who work for employers with fewer than 50 employees,
and those who work for exempted religious employers,
may have no contraceptive or abortifacient coverage at
all. 42 U.S.C. § 300gg-13(a)(4), 42 U.S.C. § 18011(a)(2),
45 C.F.R. § 147.140, 26 U.S.C. § 6033(a)(3)(A)(i), (iii);
see also Hobby Lobby, 134 S. Ct. at 2780. The Court
expressly called into doubt the “compelling interest” of
contraceptive and abortifacient coverage in light of the
exemption for grandfathered plans, stating:
the interest served by one of the biggest
exceptions, the exception for grandfathered
plans, is simply the interest of employers in
avoiding the inconvenience of amending an
existing plan. Grandfathered plans are required
“to comply with a subset of the Affordable Care
Act’s health reform provisions” that provide
what HHS has described as “particularly

the use of contraceptives,” the government also does not have an
“obligation to ensure that all people have financial resources to
obtain contraceptives.” Id. at 318. Respondents are not entitled
to force religious business owners and religious non-profit entities
to provide contraceptives and abortifacients through their health
care plans.

23
significant protections.” 75 Fed. Reg. 34540
(2010). But the contraceptive mandate is
expressly excluded from this subset. Ibid.
Id.
Notably, through the religious employer exemption,
HHS has also suggested that the exercise of religion is
a more compelling interest than whatever the asserted
interest free contraceptive and abortifacient coverage
might provide. However, invalidating the federal
Petitioners’ latest exemption would limit its respect for
religion to only certain employers’ religious beliefs.
The previous religious employer exemption sets the
religious beliefs of whatever the government deems a
religious employer above the same sincerely held
beliefs of religious, non-profit organizations that cannot
qualify for the religious employer exemption. 26 U.S.C.
§ 6033(a)(3)(A)(i), (iii).
The government cannot
determine that the effect of the HHS Mandate is more
burdensome on churches than on other organizations
run by religious individuals. See Lyng, 485 U.S. at 44950 (“This Court . . . cannot weigh the adverse effects on
[a person] and compare them with the adverse effects
on [another person]. Without the ability to make such
comparisons, we cannot say that the one form of
incidental interference with an individual’s spiritual
activities should be subjected to a different
constitutional analysis than the other.”).
The
government cannot selectively choose who warrants
RFRA protection; it “must apply to all citizens alike.”
Id. at 452. And, by narrowly extending the HHS
Mandates’ exemption scheme to apply equally to all
religious adherents the federal Petitioners follow this

24
Court’s unanimous holding in Gonzales v. O Centro
Espírita Beneficente União do Vegetal, 546 U.S. 418
(2006). In Gonzales, the Court held that offering an
exemption to some religious adherents, but not to
others, “fatally undermined” the assertion that the
law’s compelling interest could not be achieved without
requiring all to follow the federal law. Id. at 433-35.
Respondents already exempt millions of employer
health plans from the HHS Mandate. Hobby Lobby,
134 S. Ct. at 2751. If free contraceptives and
abortifacients were such a compelling interest,
Respondents could provide these services themselves
without substantially burdening Petitioners’ religious
freedom. The many exemptions already provided for
under the regulations necessarily destroy any
argument that the HHS Mandate serves a compelling
interest. As this Court stated, “a law cannot be
regarded as protecting an interest of the highest order
when it leaves appreciable damage to that supposedly
vital interest unprohibited.” Church of Lukumi Babalu
Aye v. City of Hialeah, 508 U.S. 520, 447 (1993)
(internal citations omitted). Therefore, since the HHS
Mandate already does not apply to millions of health
plans, including some plans exempt from the HHS
Mandate based on religious beliefs, it does not serve a
compelling governmental interest.
CONCLUSION
Therefore, this Honorable Court should reverse the
decisions below in order to protect and defend the free
exercise of religion guaranteed by RFRA.

25
Respectfully submitted,
ERIN ELIZABETH MERSINO
Counsel of Record
WILLIAM WAGNER
JOHN S. KANE
KATHERINE HENRY
GREAT LAKES JUSTICE CENTER
5600 W. Mount Hope Highway
Lansing, MI 48917
(517) 322-3207
erin@greatlakesjc.org
Counsel for Amicus Curiae

